<html>
<title> - REDUCING WASTE IN GOVERNMENT: ADDRESSING GAO'S 2013 REPORT ON DUPLICATIVE FEDERAL PROGRAMS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
     REDUCING WASTE IN GOVERNMENT: ADDRESSING GAO'S 2013 REPORT ON 
                      DUPLICATIVE FEDERAL PROGRAMS

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 9, 2013

                               __________

                           Serial No. 113-13

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reformm



                  U.S. GOVERNMENT PRINTING OFFICE
80-719                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4b2c3b240b283e383f232e273b6528242665">[email&#160;protected]</a>  

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              MARK POCAN, Wisconsin
DOC HASTINGS, Washington             TAMMY DUCKWORTH, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 PETER WELCH, Vermont
THOMAS MASSIE, Kentucky              TONY CARDENAS, California
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina         MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan        VACANCY
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 9, 2013....................................     1

                                WITNESS

The Honorable Gene L. Dodaro, Comptroller General of The U.S. 
  Government Accountability Office
    Oral Statement...............................................     5
    Written Statement............................................     7

                                APPENDIX

The Honorable Elijah E. Cummings, a Member of Congress from the 
  State of Maryland, Opening Statement...........................    83
GAO Response to Follow-up from Duplication Hearing: IRS and 
  Return on Investment (ROI).....................................    85


     REDUCING WASTE IN GOVERNMENT: ADDRESSING GAO'S 2013 REPORT ON 
                      DUPLICATIVE FEDERAL PROGRAMS

                              ----------                              


                         Tuesday, April 9, 2013

                  House of Representatives,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 2:05 p.m., in Room 
2153, Rayburn House Office Building, Hon. Darrell E. Issa 
[chairman of the committee] presiding.
    Present: Representatives Issa, Lankford, Duncan, Lummis, 
Woodall, Collins, Meadows, Bentivolio, DeSantis, Cummings, 
Norton, Connolly, Duckworth, and Horsford.
    Staff Present: Will L. Boyington, Press Assistant; Molly 
Boyl, Parliamentarian; Lawrence J. Brady, Staff Director; David 
Brewer, Counsel; Daniel Bucheli, Assistant Clerk; Steve Castor, 
General Counsel; Katelyn E. Christ, Professional Staff Member; 
John Cuaderes, Deputy Staff Director; Gwen D'Luzansky, Research 
Analyst; Adam P. Fromm, Director of Member Services and 
Committee Operations; Linda Good, Chief Clerk; Tyler Grimm, 
Professional Staff Member; Christopher Hixon, Deputy Chief 
Counsel, Oversight; Michael R. Kiko, Staff Assistant; Justin 
LoFranco, Digital Director; Mark D. Marin, Director of 
Oversight; Tegan Millspaw, Professional Staff Member; James 
Robertson, Professional Staff Member; Peter Warren, Legislative 
Policy Director; Rebecca Watkins, Deputy Director of 
Communications; Eric Cho, Detailee; Krista Boyd, Minority 
Deputy Director of Legislation/Counsel; Beverly Britton Fraser, 
Minority Counsel; Adam Koshkin, Minority Research Assistant; 
Elisa LaNier, Minority Deputy Clerk; and Dave Rapallo, Minority 
Staff Director.
    Chairman Issa. The committee will come to order.
    We exist to secure two fundamental principles. First, 
Americans have a right to know that the money Washington takes 
from them is well-spent. And, second, Americans deserve an 
efficient, effective government that works for them. Our duty 
on the Oversight and Government Reform Committee is to protect 
these rights.
    Our solemn responsibility is to hold government accountable 
to taxpayers because taxpayers have a right to know what they 
get from their government. It is our job to work tirelessly, in 
partnership with citizen watchdogs, to deliver the facts to the 
American people and bring genuine reform to the Federal 
bureaucracy.
    Today's hearing will focus on the GAO's third annual report 
on areas of duplication within the Federal Government. The GAO 
is our key partner in eliminating waste, fraud, and abuse and 
providing transparency and an honest, nonpartisan view of 
government and its spending.
    In the past, the GAO has made almost 300 recommendations 
among 131 issue areas to Congress and to the executive branch 
to reduce cost, duplication, fractured and overlapping 
programs. As of today, sadly, only 16 of 131 have been fully 
addressed.
    However, to be timely, just tomorrow we expect the 
President's budget to have a number of these addressed. Perhaps 
sequestration was the impetus, perhaps simply a fifth year of a 
Presidency. But as budget pressure increases and the American 
taxpayer says, ``I cannot afford to buy the same services 
twice,'' both Congress, including the GAO, and the executive 
branch must find these programs--must find this waste and must 
do our job differently.
    One of the things that this report cannot do is it cannot 
talk about the pure inefficiency of branches thinking 
separately. Even when there is not pure duplication, ultimately 
every part of government, every administrative part, at least 
26 different entities, buy separately, think separately, staff 
separately, and have separate executives to do substantially 
the same work.
    I am pleased that the committee has already been 
responsible to the GAO's--or, responsive to the GAO's 
nonpartisan recommendations. Several of the cost-saving 
recommendations addressed by the GAO were addressed in the 
Federal Information Technology Acquisition Reform Act that was 
unanimously voted out of this committee last month.
    IT procurement is a classic example that I believe all of 
us on the dais and all of us in America can understand. The 
buying of computers, the buying of software to meet the basic 
needs of communication and of contact with the public, and 
database management is, in fact, the same both in and out of 
government, for the most part, and certainly the same within 
government.
    If we implement this and other harmonizing programs, we can 
save many of the dollars that the Comptroller General will 
speak of today. But only a thorough reorganization of 
government will, in fact, prevent these from happening again.
    My first question today to our witness will be just that. 
Isn't it inherent within our government that as long as we have 
individual budgets, individual authority, individual freedoms 
by Cabinet positions and bureaucrats, won't they inherently try 
to build their organizations, not because they are evil, not 
because they choose to waste money, but because ultimately it 
is their career?
    We need to change that. We need to create a career path in 
government that says, where you are in government and what you 
do in government do not have to be based on protecting your own 
bureaucracy. Congress must focus on this. And I am delighted to 
say that, with the President's pre-announcement of as much as 
$25 billion addressed by the GAO and others, we will, in fact, 
for the first time see a budget that dramatically reduces 
duplication.
    As I said earlier, this isn't enough. And fundamental 
change must be in Congress' hands, and we must rise to that 
occasion.
    And, with that, I would like to recognize the ranking 
member for his opening statement.
    Mr. Cummings. Thank you very much, Mr. Chairman. And I 
thank you for holding this very important hearing.
    And I want to thank you, Mr. Dodaro, for being here to 
testify about GAO's findings.
    Today's hearing will examine GAO's latest annual report on 
duplication in Federal programs and opportunities for 
significant cost savings.
    And before I go on, let me, Mr. Dodaro, thank you and your 
hardworking staff for the excellent work that you all do. So 
often, Federal employees do not get the credit that they are 
due, but the integrity and the excellent work that you all put 
out is a real benefit to not only the Congress but the people 
of the United States of America. And I just want to make sure I 
say that.
    Hearings like this one provide an important opportunity to 
identify ways to cut government waste, save money, and make our 
taxpayer dollars go further. But holding hearings is not 
enough. Congress must follow up with concrete action to save 
the taxpayers money.
    GAO issued two of these reports previously in 2011 and 
2012, and GAO made 300 specific recommendations to the 
executive branch and to Congress. This year's report provides a 
status update on those recommendations, and it finds that 
Congress is doing a much poorer job than the executive branch 
in implementing these recommendations.
    Specifically, GAO finds that the executive branch has fully 
or partially addressed 80 percent of their recommendations, but 
Congress has fully or partially addressed only 32 percent of 
their recommendations. This is a poor record that Congress 
should strive to correct.
    In this year's report, GAO highlights 11 areas of 
unimplemented recommendations from its previous reports that, 
if implemented, would save billions of dollars. Seven out of 
the 11 areas would require congressional action, but so far 
Congress has failed to act.
    For example, in previous reports GAO found that the Federal 
Government could save up to $2 billion over the next 10 years 
if Congress authorized the Department of the Interior to revise 
the royalty rates for oil and gas revenues in the Gulf of 
Mexico. But Congress has failed to act on this recommendation. 
As a result, it is listed yet again in the GAO's report for 
2013.
    GAO's new report also identifies additional ways our 
government can save money. For example, according to GAO, if 
Congress limited subsidies for crop insurance, it would save up 
to $1.2 billion a year. GAO found that agencies could save 
billions of dollars by improving oversight over their 
information technology investments, and GAO also found that 
agencies could save millions of dollars by using cloud 
computing.
    It seems to me that this is one hearing in which Democrats 
and Republicans can join forces to eliminate waste, fraud, and 
abuse.
    I shall never forget, Mr. Dodaro, when I first ran for 
Congress and was 15 points behind. And I hired this guy to 
manage my campaign, and he said, Although you are 15 points 
behind--and the race was only a 2-month race--he said, Always 
remember this. He says, Most people know what to do, they know 
the plan, but they don't execute it. He said, If you execute 
the plan, you are going to win. And I won by 15 points.
    And so I think this is about coming up with a plan and 
trying to execute it, make it happen. So whether you believe 
the savings should go toward deficit reduction or making our 
current government programs more effective and efficient, we 
should all be able to agree that a dollar wasted here is a 
dollar that is not put to better use elsewhere. I think 
Republicans and Democrats will agree that we want to see the 
taxpayers' dollars spent in an effective and efficient manner.
    Mr. Dodaro, I look forward to hearing your testimony, 
including specific recommendations to cut waste and save the 
government money. I would also appreciate your guidance on 
steps we can take to remove some of these longstanding 
recommendations from your list so we are not here again in 2014 
asking the same questions.
    And as I said a little earlier, I compliment your staff, 
but we also want them to feel that we are doing what they have 
suggested that we do after all of their hard work.
    And, with that, Mr. Chairman, I yield back.
    Chairman Issa. I thank the gentleman.
    Chairman Issa. Members may have 7 days to submit opening 
statements for the record.
    Chairman Issa. We now have the honor of welcoming our 
primary witness and the ladies and gentlemen he brought with 
him.
    The first witness is the Honorable Gene Dodaro. He is 
Comptroller General of the United States.
    We are also pleased to welcome several experts from the 
United States Government Accountability Office that will be 
with him here today. And we would ask that they also rise to be 
sworn in a minute.
    I would like to recognize, though, specifically--and there 
may be others, but--Ms. Janet St. Laurent. She is the Managing 
Director of Defense Capabilities and Management. Mr. Joel 
Willemssen is Managing Director of Information Technology. Mr. 
Mark Gaffigan is Managing Director of Natural Resources and 
Environment. And Ms. Cathleen Berrick is Managing Director of 
Homeland Security and Justice.
    Will those individuals and anyone else who may provide 
information to the Comptroller General please rise to take the 
oath? Would you please raise your right hand?
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Please be seated.
    Let the record reflect that all witnesses have answered in 
the affirmative.
    Gene, you have been here so many times, it is almost crazy 
to say look at the lights. Your statements are always 
sufficiently short, and our questions are always long. So your 
entire opening statement will be placed in the record, and you 
are recognized to give your abbreviated opening statement.

 STATEMENT OF THE HON. GENE L. DODARO, COMPTROLLER GENERAL OF 
    THE UNITED STATES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Dodaro. Thank you very much, Mr. Chairman. It is a 
pleasure to be here this afternoon.
    Ranking Member Cummings, I appreciate your comments about 
our staff.
    Members of the committee, I am very pleased to be here 
today to discuss our most recent report on ways to make 
government more efficient and effective. We, in this report, 
highlighted 17 areas where we have focused on areas of 
fragmentation, overlap, or duplication in the Federal 
Government and made recommendations to address these issues.
    For example, from 2002 until most recently, the Department 
of Defense has moved from two camouflage ground-based uniforms 
to up to seven so that they are service-based purchases rather 
than joint purchases, thereby foregoing the opportunity for 
tens of millions of dollars of savings but also, importantly, 
from ensuring equivalent protection of servicemembers during 
joint operations. We have made recommendations to address that 
issue.
    Also, in the Medicaid program, which is an area where there 
is a large amount of improper payments, billions of dollars a 
year, the Department of Health and Human Services, CMS, has 
taken a number of actions. However, we have pointed out one 
action where they actually hired two contractors for every 
State--one to review the data to decide which claims to audit 
and another contractor to audit the claims. We said that is 
inefficient, duplicative; one contractor will do.
    And then, also, in the area of geospatial or mapping 
information, there are billions of dollars spent every year by 
the Federal Government to buy this information, and it has been 
well reported that there are duplicative investments.
    And so we have focused on recommendations to ensure more 
effective coordination of a joint committee that is focused on 
these activities. It needs to do a better job. OMB needs to 
have more visibility and to be able to prevent these 
duplicative investments. And it needs to become a priority.
    In this case, Mr. Cummings, they have a plan. It is not 
executed, Mr. Chairman, and it is not a priority. And it has to 
be both, thereby reaping benefits of millions of dollars in 
this area.
    Now, we also identify 14 other areas where there are 
opportunities for cost savings and revenue enhancements.
    In cost savings, we have testified before this committee on 
the Medicare demonstration pilot on Medicare Advantage and 
recommended the pilot be canceled. At the time we did that, 
there was the possibility of saving $8.3 billion because this 
pilot only rewards average performing plans and is not really 
going to demonstrate what it is intended to demonstrate. Right 
now, there is still an opportunity to save $2 billion, but 
Congress has to act soon in order to cancel this pilot.
    Also, in the Medicaid area, there are billions of dollars 
spent, in addition to reimbursements for claims, in order to 
make sure that there is money provided for uncompensated care. 
We think there is not enough oversight over these areas, and 
there are costs being reimbursed that are well in excess of the 
costs that are spent to deliver those services, and this 
doesn't make sense. So there needs to be more transparency and 
accountability.
    We made recommendations on the revenue side, for example. 
We have made a number of recommendations to the IRS in order to 
help close a $385 billion tax gap. There are also opportunities 
for the Congress to legislate in the tobacco tax area to make 
the tax equivalent for similar types of products. That could 
garner the Federal Government several hundred millions of 
dollars and up to a little over a billion dollars a year and 
make that more equitable.
    Now, turning to our prior reports, if I could direct your 
attention to the chart here, this shows the percent of actions 
that have been taken on the 130 recommendations we have had 
already. Twelve percent, as you mentioned, Mr. Chairman, 16, or 
12 percent, have been acted on. Sixty-six percent have been, or 
87 of them, we have partial addressment. And 21 percent, or 27 
of those actions, have not been addressed at all. So there are 
plenty of opportunities.
    And the opportunities are throughout government. I will 
show my last chart. This is, for all 3 years, we have 162 
areas, 380 specific recommendations for action, that go across 
virtually every major department and agency of the Federal 
Government. Many here are in defense, HHS, and Treasury, which 
are about 56 percent of total obligations for the year.
    So, many opportunities, Mr. Chairman. I look forward to 
answering your questions today and working with this committee 
to make government more efficient and effective on behalf of 
the American people.
    Chairman Issa. Thank you.
    [Prepared statement of Mr. Dodaro follows:]

    [GRAPHIC] [TIFF OMITTED] T0719.001
    
    [GRAPHIC] [TIFF OMITTED] T0719.002
    
    [GRAPHIC] [TIFF OMITTED] T0719.003
    
    [GRAPHIC] [TIFF OMITTED] T0719.004
    
    [GRAPHIC] [TIFF OMITTED] T0719.005
    
    [GRAPHIC] [TIFF OMITTED] T0719.006
    
    [GRAPHIC] [TIFF OMITTED] T0719.007
    
    [GRAPHIC] [TIFF OMITTED] T0719.008
    
    [GRAPHIC] [TIFF OMITTED] T0719.009
    
    [GRAPHIC] [TIFF OMITTED] T0719.010
    
    [GRAPHIC] [TIFF OMITTED] T0719.011
    
    [GRAPHIC] [TIFF OMITTED] T0719.012
    
    [GRAPHIC] [TIFF OMITTED] T0719.013
    
    [GRAPHIC] [TIFF OMITTED] T0719.014
    
    [GRAPHIC] [TIFF OMITTED] T0719.015
    
    [GRAPHIC] [TIFF OMITTED] T0719.016
    
    [GRAPHIC] [TIFF OMITTED] T0719.017
    
    [GRAPHIC] [TIFF OMITTED] T0719.018
    
    [GRAPHIC] [TIFF OMITTED] T0719.019
    
    [GRAPHIC] [TIFF OMITTED] T0719.020
    
    [GRAPHIC] [TIFF OMITTED] T0719.021
    
    [GRAPHIC] [TIFF OMITTED] T0719.022
    
    [GRAPHIC] [TIFF OMITTED] T0719.023
    
    [GRAPHIC] [TIFF OMITTED] T0719.024
    
    [GRAPHIC] [TIFF OMITTED] T0719.025
    
    [GRAPHIC] [TIFF OMITTED] T0719.026
    
    [GRAPHIC] [TIFF OMITTED] T0719.027
    
    [GRAPHIC] [TIFF OMITTED] T0719.028
    
    [GRAPHIC] [TIFF OMITTED] T0719.029
    
    [GRAPHIC] [TIFF OMITTED] T0719.030
    
    [GRAPHIC] [TIFF OMITTED] T0719.031
    
    [GRAPHIC] [TIFF OMITTED] T0719.032
    
    [GRAPHIC] [TIFF OMITTED] T0719.033
    
    [GRAPHIC] [TIFF OMITTED] T0719.034
    
    [GRAPHIC] [TIFF OMITTED] T0719.035
    
    [GRAPHIC] [TIFF OMITTED] T0719.036
    
    [GRAPHIC] [TIFF OMITTED] T0719.037
    
    [GRAPHIC] [TIFF OMITTED] T0719.038
    
    [GRAPHIC] [TIFF OMITTED] T0719.039
    
    [GRAPHIC] [TIFF OMITTED] T0719.040
    
    [GRAPHIC] [TIFF OMITTED] T0719.041
    
    [GRAPHIC] [TIFF OMITTED] T0719.042
    
    [GRAPHIC] [TIFF OMITTED] T0719.043
    
    [GRAPHIC] [TIFF OMITTED] T0719.044
    
    [GRAPHIC] [TIFF OMITTED] T0719.045
    
    [GRAPHIC] [TIFF OMITTED] T0719.046
    
    Chairman Issa. I will recognize myself for a couple of--a 
quick statement and then a couple of questions.
    The ranking member in his opening statement mentioned 
raising the revenues from drilling of oil and natural gas. That 
is not a cost savings. He called it a cost savings. It is a tax 
increase, right? It is not one of your recommendations that you 
simply increase the percentages that you charge for royalties?
    Mr. Dodaro. What we recommended is that the Department--
there were studies showing that other agencies--that other 
entities that give those leases were gaining more revenues from 
the leases than the Federal Government. So we recommended that 
Interior conduct a study to determine whether or not it was, 
you know, maximizing the revenue capabilities. The study has 
been done, but they haven't made any recommendations.
    Chairman Issa. Well, but isn't it true that they actually 
don't know what they are entitled to? They are not able to 
properly audit how much oil or natural gas they get out? There 
is a huge amount of areas that have not been available for 
leasing?
    In other words, if we were to look at this as a savings--I 
kind of look at it as a tax or a revenue, but if we were to 
look at it as revenue, we would have to make these things 
comparable to the highest and best selling price you could find 
in the private sector--in other words, get at least what you 
would get on private lands--recognizing that the State of 
Texas, for example, has rights in shallow water. So there is a 
comparable between the State of Texas in the State versus our 
offshore leases and so on. But it would be there, it would be 
Federal lands for grazing.
    And, ultimately, wouldn't there be a return if they simply 
got their audit? And I know this is where you have an expert 
about to jump up.
    Mr. Dodaro. Right.
    Chairman Issa. But if they did proper audits so they 
actually knew what they were entitled to and could ensure they 
get 100 cents on the dollar of what they are entitled to.
    Mr. Dodaro. Yes. And I will ask our expert, Mark, to come 
to the table.
    But there are really two issues. And we are looking at a 
revenue issue, all right? Number one, are we charging the right 
royalties in the first place? And, number two, are we really 
getting what we are owed due to the volume and extraction of 
the oil? So you are exactly right.
    Chairman Issa. And, as you know, this committee, on a very 
bipartisan basis, went back and forth trying to get the 
revenues. There were contract failures that led to no revenues, 
when, in fact, that wasn't the intent nor the letter of the law 
that Congress passed.
    Please, Mark.
    Mr. Gaffigan. Thank you, Chairman Issa. Yes. And we enjoyed 
working with your staff, Larry Brady and company, on that back 
in the day.
    There are sort of three parts of this. One is sort of the 
product verification, and that is what you are alluding to. We 
have 19 recommendations we made to what was MMS and is now----
    Chairman Issa. Changed the names, but they are still not 
doing their job, right?
    Mr. Gaffigan. --still within the Department of Interior. 
They have made some progress, and that is why we addressed it 
as partially addressed. They have gotten together a committee 
that meets to talk about current trends in measurement.
    But they are missing in some other areas. For example, they 
really don't have real realtime production data so they can 
verify, you know, what we are producing.
    The other part of it is the diligent development concern. 
We have leases that aren't being--that aren't being utilized. 
And there have been several proposals in Congress, and Interior 
has made some proposals, to charge a rent for those leases that 
aren't being used as a motivation to seek development. And that 
is part of where that $2 billion potentially could come from.
    Chairman Issa. Although that wouldn't be able to come under 
current leases.
    Mr. Gaffigan. Right.
    Chairman Issa. That would be part of the bid process. So 
wouldn't there be an offset in that if I know I might have to 
pay the rent, in my bidding process I might bid a little less?
    Mr. Gaffigan. Yeah, that is definitely a possibility. But 
the idea is it would provide that incentive to them.
    Chairman Issa. Sure.
    Mr. Gaffigan. And the other part is the revenue collection. 
We did recommend that they do some studies on what the 
government take was compared to others. They have done three of 
those studies, but they just haven't acted with the 
recommendation to either affirm what we are charging now makes 
sense or whether we want to adjust it, up or down.
    Chairman Issa. Sure. Well, I can tell you that it is a heck 
of a deal until you get into the regulatory time it takes to 
get an oil well or a natural gas well drilled sometimes. But 
you are absolutely right, we should try to maximize that 
revenue.
    Switching slightly, Mr. Dodaro, your previous report and 
this report continue to identify the IT investment. And I am 
particularly interested in your view on what I--if I read it 
correctly, from 2012, still today, OMB has essentially been 
tasked to find out how much is being spent on IT. We recently 
did a hearing on this $80 billion nominal amount.
    But if I read correctly, what you are telling me is that it 
is underreported, that, in fact, because they are not reporting 
their IT expenditures to the OMB and the OMB is not forcing 
them to, that, in fact, we may be spending more and spending it 
poorer.
    Is that a succinct way of saying it?
    Mr. Dodaro. Yeah. I will ask Joel Willemssen to come up and 
explain that. But I think that that is a correct statement.
    And I also would say, Mr. Chairman, I meant in my opening 
statement to commend this committee for passage of the IT 
Acquisition Reform Act. That act touches on a number of areas 
that we have reported in all 3 years.
    Chairman Issa. If you stop over at the Senate, mention 
that.
    Mr. Dodaro. I will. I will be there next month.
    Joel?
    Mr. Willemssen. Mr. Chairman, as you mentioned, when OMB 
talks about the amount of money the Federal Government spends 
on IT, it is an understated figure for a variety of reasons.
    One is that a number of smaller independent agencies don't 
report this information to OMB. That is about 58 agencies. In 
addition, there are a number of IT projects, whether they are 
R&D projects or space projects, which include a huge percentage 
of IT, that are often not reported.
    In addition, from a total Federal Government perspective, 
we are only talking about a slice of the executive branch. We 
are not talking about the legislative branch, we not talking 
about the judicial branch. In addition, the intel area is not 
included.
    So, with all of those exclusions, what is the total amount 
spent? Nobody knows. Is it slightly north of $100 billion 
annually? Probably, but we don't know for sure.
    Chairman Issa. Thank you.
    I will mention, the only thing I take away from my time on 
the Select Intelligence Committee is that I learned the 
definition of ``petabyte'' of data. So I share with you that 
that it is a lot of procurement over there.
    Mr. Cummings?
    Mr. Cummings. Thank you very much.
    Mr. Dodaro, you know, the more I am in government--and I 
have been here 17 years, been in the State legislature for 14--
you know, I am always reminded of something that my mother used 
to say. She said, So often you have motion, commotion, and 
emotion, and no results.
    You know, the older I get, the more I am concerned about 
that. Because we come here, the government spends billions of 
dollars for staff, you have people working 365 a year. And the 
question is, you know, how do we--you mentioned a few success 
stories in your opening. And you, you know--and I know you want 
to see things implemented.
    Have you seen something that gives you some hope so that 
when you go back to your staff you say, You know what, guys, 
you know--and ladies and gentlemen, we have done some great 
work, and, you know, I think this is an area that we are going 
to see some change?
    Because I can imagine that--and I alluded to this in my 
opening--that when people work hard and give it everything they 
have, and then if they see the recommendations put on the shelf 
and turn dusty, they begin to wonder whether or not they are 
truly feeding their souls. In other words, a lot of people come 
to government because they want to make a difference, the ones 
I talk to. And so when they don't see those differences being 
made, they get frustrated and they may move on to something 
else. And these are great people.
    So I am trying to get to bottom lines. You know, I go back 
to that ``motion, commotion, emotion, and no results.'' 
Because, as I say to people all the time, we only have a 
limited amount of time on this earth and a limited amount of 
time in these positions.
    The question is, I mean, do you see something, can you tell 
us something, based upon the things that you have seen enacted, 
that might help us to get there? Are you following my question?
    Mr. Dodaro. Yes. Yes. Definitely. Definitely.
    First of all, 80 percent of our recommendations at GAO are 
implemented. I mean, we are----
    Mr. Cummings. So you feel good about that.
    Mr. Dodaro. We feel good about that.
    Mr. Cummings. Is that something new? Is that new?
    Mr. Dodaro. No. That is about the average----
    Mr. Cummings. Great.
    Mr. Dodaro. And, actually, last year, there were financial 
benefits accrued to the Federal Government, over $55 billion, 
as a result of GAO work. That is $105 for every dollar invested 
in GAO. So we feel good about it.
    Now----
    Mr. Cummings. But do you all have a party or anything, 
like, when you have one of these big--I mean, seriously.
    Mr. Dodaro. No.
    Mr. Cummings. No?
    Mr. Dodaro. No.
    Mr. Cummings. Oh, all right.
    Chairman Issa. We would investigate----
    Mr. Cummings. That is right, you would be investigated.
    Mr. Dodaro. Yeah, right, right, right. We just keep feeding 
our souls. We just keep going at it.
    Chairman Issa. You can have ``Donut Friday.''
    Mr. Dodaro. But, I mean, among that, though, I will just 
give two examples of good successes related to this area.
    We recommended that the ethanol tax credit be looked at 
because it was duplicating the renewable fuel standard. 
Congress let that tax credit lapse, and that was about $5.7 
billion in revenue losses to the Federal Government.
    We also recommended that--DOD was planning on sending all 
the families of the servicemembers over to South Korea to 
enable them to have more of a normal tour of duty over there. 
We said, you know, that is going to cost a lot of money; have 
you done a business case? They did the business case, decided 
against it, avoided over $3 billion that would have been spent 
on that activity.
    And there are stories like that all the time. We are here 
talking about some tough issues that haven't been addressed yet 
and need to be addressed. But be sure that the people at GAO 
are working hard to make sure that these things do get 
addressed.
    Mr. Cummings. I want to go back to, you know, this whole 
oil and gas royalties. In that report 2 years ago, you found 
that the Federal Government could receive an additional $1.7 
billion in oil and gas royalties over the next 10 years if the 
Federal Government started getting a fair market value for the 
leases. Is that right?
    Mr. Gaffigan. The estimate that we got from Department of 
the Interior was $2 billion over 10 years. About $800 million 
would come from the rents that I spoke of and another $1.2 
billion from changes to the royalties.
    Mr. Cummings. And GAO has also included management of 
Federal oil and gas resources on its annual high-risk list for 
the last 3 years. Is that right?
    Mr. Gaffigan. Right. I think we put that on in 2009.
    Mr. Cummings. And do you get frustrated?
    Mr. Gaffigan. We stay at it. We see some progress being 
made. There is still some work to be done. For example, we were 
concerned about the reorganization, and we think they came 
through on that with the high-risk series.
    But we still think in two major areas they have some work 
to do: the revenue collection, which we alluded to, and as well 
as the human capital challenge of having the staff to be able 
to implement these programs.
    Mr. Cummings. And you all said, Mr. Dodaro, that the 
administration had at least partially implemented 80 percent of 
the recommendations and the Congress, 32 percent. Is that 
right?
    Mr. Dodaro. That is correct. And, actually, if you look at, 
though, to put it in perspective, if you just look at fully 
addressed, executive branch and Congress are about the same, 
about 20 percent. But if you look--the executive branch has a 
lot more partially addressed areas. In order to get a partially 
addressed in Congress, you have to get a bill at least reported 
out of committee to be able to do it.
    But what you said is correct.
    Mr. Cummings. Now, last year, the Obama administration 
requested a legislative change from Congress to allow it to 
implement certain recommendations. The administration requested 
authority from Congress in its fiscal year 2012 budget request 
to charge a $4-per-acre annual fee on nonproducing Federal oil 
and gas leases, but Congress still refused to consider 
legislation to implement this recommendation, according to your 
report. Is that correct?
    Mr. Gaffigan. That is correct. And that is the basis of the 
estimate from Interior of almost $800 million over 10 years.
    Mr. Cummings. I see.
    I see my time has expired. Thank you, Mr. Chairman.
    Chairman Issa. Thank you.
    I just want to ask a clarifying question so everybody else 
understands what is in Congress to do and what is in the 
administration to do.
    We in the House, including you, have about $4.5 billion in 
budget. You are not talking about us saving money on our 
budget. When you talk about ``congressional,'' you are talking 
about the need to pass laws, presumably that the President 
would sign, and that is what is on our plate.
    When you talk ``the President,'' you talk about an 
Executive authority. He gets on the phone and says to the OMB 
Director, Do it.
    Am I correct that that is----
    Mr. Dodaro. Yes. Yes. That is exactly right. That is 
exactly right.
    Chairman Issa. Okay. And I think the gentleman knows that. 
I just, hopefully, for all the new Members particularly, that 
one of them--I am not trying to make excuses for our body, but 
one of them requires that we get the Senate to agree with us, 
the President to agree with us, and make a law. The other is, 
in fact, direct. All you have to do is order it done, and if it 
is not done, you find somebody new that you order to have it 
done.
    It is a little bit of a difference. And I am not making 
excuses because I think we should have a ``partially done'' on 
every one of your recommendations.
    And speaking of people that would get a lot of that done, 
we now recognize the gentleman from Oklahoma, Mr. Lankford.
    Mr. Lankford. Thank you, Mr. Chairman.
    There is a semi-unprecedented recommendation that is in the 
middle of all this, as well, and it is the Medicare Advantage 
demonstration program. GAO seemed to stick its neck out last 
year and to say there is a program that HHS is implementing 
that, I think the term was, is outside the bounds of the 
statute, what they are given permission to do. And it is about 
an $8 billion program that you said is not only wasteful but it 
is probably not even legal, though, obviously, you didn't make 
that statement. The GAO was very careful to say, We are not 
attorneys, we are not making this recommendation about the 
legality of it.
    But of all the demonstration programs that have happened 
since 1995, it is larger than all of them combined. You 
recommended and said, This program is not demonstrating 
anything; we recommend to the administration that it be 
canceled. Was that program canceled?
    Mr. Dodaro. No.
    Mr. Lankford. Can you determine why the program came into 
existence? A program that is outside of the bounds of the 
statute, that they don't have legal authority to do, that is 
larger than all of the demonstration programs combined. Were 
you able to get an answer from the administration why they are 
doing this program at all?
    Mr. Dodaro. Yeah, with the chairman's permission, I would 
like to bring up another person who wasn't sworn in.
    Chairman Issa. Oh, no, absolutely.
    Mr. Dodaro. Okay. James Cosgrove was our witness before 
this committee and is our expert on this matter.
    Chairman Issa. Just to be technical, please rise and raise 
your right hand.
    Do you solemnly swear the testimony you will give will be 
the truth, the whole truth, and nothing but the truth, so help 
you God?
    Let the record reflect an affirmative also.
    And you are in.
    Mr. Lankford. What is your best guess of why the 
administration did it in the first place?
    Mr. Cosgrove. The stated intention from the administration 
was that they wanted to test a way of giving plans a stronger 
incentive to improve their quality.
    Mr. Lankford. The way they had designed the program, was 
that possible to get that outcome?
    Mr. Cosgrove. What we determined was that it was impossible 
for an evaluation to be done to see whether the demonstration 
worked or not, which is why we recommended that the 
demonstration be canceled.
    Mr. Lankford. So they dumped $8.3 billion over 3 years into 
a program to demonstrate something that it is not possible to 
demonstrate something with. Why would they do that? They are 
very smart folks. Could you ever determine, did you ever get an 
answer back from them?
    We had a hearing with this committee, as well, to try to 
ask some of the same questions. Were you able to determine why 
they are spending this 8-point-some-odd billion dollars?
    Mr. Cosgrove. What we have is simply their stated reason 
for doing the demonstration.
    This is also in the context that Congress passed and the 
President signed into law provisions that would have given 
plans an incentive to increase their quality. CMS, instead of 
implementing those provisions, set those aside and implemented 
the demonstration program instead.
    Mr. Dodaro. We are still, in this report that we are 
talking about today, recommending that this demonstration be 
canceled. There is still $2 billion that hasn't been spent yet 
that the Congress could act to stop the demonstration.
    Mr. Lankford. Correct. So Medicare Advantage was to be cut, 
based on the existing law that is sitting out there. The 
Affordable Care Act I assume is what you are talking about when 
you talk about the law that has been passed. There was a 
reduction in the Affordable Care Act. That reduction was 
replaced with this demonstration program, appropriately right 
before last year's election, to sustain it over 3 years, and 
then it goes away at that point.
    So we are still trying to figure out where they came up 
with $8 billion to be able to move into a program that everyone 
said this is not legal and that everyone has said this is 
wasteful, it is not actually demonstrating--you can't do a 
demonstration project that doesn't demonstrate anything, and be 
able to just insert money into the process on that.
    We are still dealing with the same dynamic here of now we 
have $2 billion left. Their full recommendation is, continue to 
cut this off for next year because it is not actually 
accomplishing anything? Is that correct?
    Mr. Dodaro. Yes.
    Mr. Cosgrove. Yes.
    Mr. Lankford. There is also the Medicaid portion of this, 
as well, to deal with the uncompensated care. Can we go through 
a little bit of those recommendations also? Because you made 
some pretty strong recommendations on that. This is a high-risk 
area and has been for a while.
    Mr. Dodaro. Yes. I would like to bring our expert up on 
this, Mr. Chairman, Carolyn Yocom, please, if I might indulge 
the committee.
    Chairman Issa. Do you solemnly swear or affirm that the 
testimony you are about to give will be the truth, the whole 
truth, and nothing but the truth?
    Let the record reflect another yes.
    Mr. Lankford. Thank you.
    Let's talk a little about the recommendations that are 
there for uncompensated care reimbursement from Medicaid going 
to the States. What was the recommendation?
    Ms. Yocom. One of the main recommendations had to do with 
the way that States calculate their disproportionate share 
payments and the use of supplemental payments. In general, the 
issue that--there are several issues. One of the main points is 
getting some transparency and some accountability to how States 
are managing these payments.
    We have also suggested that Congress require CMS to take 
three broad actions: first, to improve the State reporting of 
these supplemental payments; secondly, to clarify the methods 
of calculating how these payments will be made; and then, 
thirdly, to require independent audits of these payments.
    Mr. Lankford. Are there some States that are more prone to 
these supplemental payments than others?
    Ms. Yocom. That is a difficult question to answer because 
we don't have the full picture of all the supplemental payments 
that are out there.
    Mr. Dodaro. But the nature of these payments has grown over 
the years quite extensively, correct, Carolyn?
    Ms. Yocom. Yes.
    Mr. Lankford. Right. But, at this point, we don't even know 
which States are more open to this or using it more often than 
others, even able to get that level of information from CMS?
    Ms. Yocom. We really don't. What we know is that reporting 
on these payments is improving but it is still not 100 percent. 
And we know that from 2010 there was $32 billion and in 2011 it 
is up to $43 billion, so they are on the rise.
    Mr. Dodaro. And, basically, I believe in this area that 
Congress will need to act to require CMS to take these actions. 
And I believe it is appropriate. There is a lot of money at 
stake here, and there is not a proper amount of transparency 
and accountability.
    Mr. Lankford. Thank you.
    With that, I yield back.
    Chairman Issa. I thank the gentleman.
    We now go to the very timely gentlelady from Illinois, Ms. 
Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    Mr. Dodaro, I was particularly interested in the portion of 
the report which deals with the need for better collaboration 
between the VA and the DOD in their delivery of healthcare 
services. I think a lot of folks in the civilian community 
think that it is the same population, and oftentimes it is not.
    For example, the VA has not had to deal with combat 
veterans giving birth before, but since Iraq and Afghanistan we 
actually now have female veterans of childbearing age, and yet 
that care is not available on the VA side. So, being able to go 
to DOD for that care will actually cut down costs, as opposed 
to sending them to civilian providers.
    I was especially interested in your discussion about 
improving the exchange of electronic health records between DOD 
and VA, and I was hoping that you could perhaps elaborate and 
summarize that. Because they are the two systems. We do have in 
Illinois and also in Georgia two joint DOD-VA facilities that 
are supposed to be becoming a single system and they are really 
not.
    Could you speak to that a little bit?
    Mr. Dodaro. Yes. I find this area very perplexing. And Mr. 
Willemssen has been following it for many, many years, and I 
would like him to provide--he will give you a thorough answer.
    Mr. Willemssen. Congresswoman, in 2011, the DOD and VA 
Secretaries agreed that they were going to pursue a unified, 
single system for veterans and Active Duty personnel. 
Unfortunately, just this past February, they elected to no 
longer pursue that route, and they now are going back to trying 
to have interoperable exchange of information between the major 
two systems.
    We testified on this in late February and expressed concern 
about the lack of a plan to do that and how they are actually 
going to carry it out. Not the least to say is the amount of 
time that has passed and the money that was spent in trying to 
develop that single system, which has now been set aside, and 
they are going back to their original plans of trying to go 
with the two systems.
    Ms. Duckworth. What was the reason for going with the two 
different systems?
    Mr. Willemssen. At the February hearing, the DOD and the VA 
witnesses said that they thought they could do it in a more 
cost-effective manner by continuing with the two systems. 
However, when pressed on that, they said the analysis of that 
was not yet complete. So we will have to wait and see whether 
the conclusion of that analysis bears that out or not.
    Mr. Dodaro. I think the analysis also ought to include an 
analysis of using one of the two systems that they currently 
have and just going with it and having the other agency adopt 
that system, as well.
    I mean, this has gone on way too long. I think a lot of 
people, both veterans and military, Active Duty military, 
deserve a better system. And it is possible. The technical 
difficulties aren't the problem here; it is a management 
decision, and there needs to be some action taken. I would 
encourage the Congress to have active oversight over this issue 
until there is a satisfactory resolution.
    Ms. Duckworth. Am I correct in my understanding that 
between the two systems, the VA's VistA system and the DOD's 
AHLTA system, the VistA system is generally perceived to be the 
better system but we are not abandoning AHLTA? Is that 
understanding correct?
    Mr. Willemssen. AHLTA is not being abandoned at this time. 
That is correct.
    Ms. Duckworth. But it is not--but the VistA system is 
superior. Is that--from the practitioner's point of view, those 
who have to use it.
    Mr. Willemssen. I would hesitate to come to that 
generalization. It depends on the user population you are 
talking to. But as a generic conclusion, most would probably 
agree with your statement.
    Ms. Duckworth. So, then, if we were to go with what you 
just said, Mr. Dodaro, as a recommendation, which is just use 
one of the two instead of trying to build a whole third one, 
which is even more expensive, how do we go about doing that? Is 
it a requirement from the White House? Is it Congress saying 
that you will use one of these two systems? That seems to be 
meddling down to a level in the services that we may not want 
to get into.
    Mr. Dodaro. Yeah. Well, my recommendation would be for the 
Congress to ask for the analysis that supports their current 
decision and ask for that analysis to be expanded to include 
the pros and cons of going to one of the two other systems and 
to see, at that point, you know, what the proper decision would 
be. And if the Congress then is not satisfied with that 
decision, it can legislate.
    Ms. Duckworth. Do you think that--in their testimony, well, 
what they are saying is it is too expensive to develop a new 
system and they are going back to the two. Is it because they 
were each counting their money that each was spending and not 
the cumulative between the two together? Do you see what I am 
saying?
    Mr. Willemssen. I want to clarify one thing. When the 2011 
decision was made to go to a unified system, it was not 
necessarily stated that they would develop a brand-new one. In 
fact, we assumed they would default to one of the existing 
ones, from a cost perspective. So I just wanted to make that--
clarify that for you.
    Ms. Duckworth. Thank you. I think this goes back to Mr. 
Chairman, what he has been working on with the purchase of 
software.
    And I yield back my time.
    Mrs. Lummis. [presiding.] The gentlelady's time has 
expired.
    We will now yield our time to the gentleman from Georgia, 
Mr. Collins.
    Mr. Collins. Thank you, Madam Chair.
    Just a quick question. You used a term there, and before I 
get to it, you talked about depending on the population that 
was using it. Is that just a very nice way of saying that this 
is the one I am trained on so I like it better?
    Mr. Willemssen. Yeah, and depending on the practitioners.
    Mr. Collins. Right. So, basically, we are not talking 
costs, we are not talking effective. We are just saying, I was 
trained on this, I like this better. We are not looking at a 
big picture.
    I think we are hitting--I think that right there may have 
summed up the entire hearing that is really concerning me, is 
we are looking at what we like, we are looking at what we are 
trained on. And in many of these departments--but I appreciate 
the way you said that. It was a very nice way of saying it, 
just basically I like what I am doing and I don't want to 
change.
    Mr. Willemssen. That is correct.
    Mr. Collins. Okay. Thank you.
    An overview question here. One, as I was looking over this 
report, which are always fascinating, I was--as a boy from 
north Georgia growing up, I didn't realize catfish needed that 
much inspection, but--I usually just caught them. You know, I 
inspected them and said, Yep, that is a good one, put it in the 
bucket, you know, we are good.
    An overview question here. What is the greatest problem--
and it may not be an easy answer--fragmentation, duplication, 
or overlap?
    Mr. Dodaro. Well, of the three, we typically find most of 
it in the overlap area.
    Mr. Collins. Okay.
    Mr. Dodaro. Among those three options, I would say.
    Mr. Collins. Okay.
    Going back to the reality of what you had commented on 
earlier, I was reading in the report on page 211, and it came 
to the checked baggage screening, TSA. And this one really 
disturbed me as we were going along. And, basically, your 
report says that TSA has not yet conducted a study to determine 
about the 90 percent cost-share. And it went on and actually 
stated this. It said that it generally applies--the 
reimbursable agreements of the checked baggage--absent 
direction from Congress that TSA conduct a study, the agency 
currently has no plans to do so.
    Ms. Berrick. That is correct.
    TSA was actually mandated to do that study back in 2004. 
They attempted to do the study in 2006, but they really 
couldn't reach consensus. Some of the issues they were 
grappling with was, what was the appropriate Federal role in 
terms of paying for these systems? They also couldn't reach 
consensus on who benefited the most. Was it the Federal 
Government? Was it the traveling public? Was it the airports? 
Because there are significant benefits to the airports, 
themselves, in terms of fewer bags being lost and stolen.
    So they couldn't reach consensus, so they decided just to 
stay with the 90 percent cost-share. And they identified that 
they wouldn't review that again unless Congress directed it.
    Mr. Collins. I mean, again, shouldn't the appropriate role 
of any Federal agency, stewards of taxpayer dollars, be to run 
the most efficient, most productive organization that they can 
and not to bog down in what-if scenarios?
    Ms. Berrick. We agree. We think they need to tackle this 
issue. We think they need to look at it. There are 
opportunities for savings here.
    Also related to checked baggage, we also identified that if 
TSA deployed more of these in-line systems, they could achieve 
significant savings just in reduced personnel costs.
    Mr. Collins. Well, I think it is very disturbing that they 
had a mandate do it, they chose--that they found problems and 
stopped. I mean, it is a story here almost like my child. When 
my child, once I tell him to do something, he says, Well, it is 
hard, Daddy, I don't want to do it, so we give up. This is the 
part that most Americans don't understand and they don't get 
when we come to this.
    Moving along, page 41, the uniform procurement. As a member 
of the Air Force, this one is one, as just a general member, it 
is like any new--and with no offense to my higher-up generals--
it is like the new general comes along, ``We need a new 
uniform.'' That is crazy. And especially when we are doing--is 
this a service branch issue?
    And I agree with my colleague here, not wanting to meddle, 
but why do we come along in looking at the cost of production--
I am still trying to figure out why it took $400,000 to redo 
the Navy uniform when they actually look like the others. I 
would have done it for a lot less than that because it is the 
same pattern.
    What can we do there? Or is there anything we can do there 
to continue this process? I know the Air Force has now decided 
that they will use something with Army, but they are not really 
sure what they can use. I can use a lot of examples here of 
people that didn't like the new ones. And, really, a force 
protection issue here.
    Can you elaborate on that real quickly?
    Ms. St. Laurent. Yes, I definitely think there is more that 
the Department of Defense can do. It has a board that is 
responsible for establishing policies and procedures with 
regard to uniforms and managing this whole process.
    And there are a couple of issues. One is certainly from a 
cost perspective. The Defense Logistics Agency will waive a fee 
if two services go together and procure uniforms. And that is 
really probably just the tip of the iceberg here in terms of 
potential cost savings because there could be further 
efficiencies and economies of scale if two services are 
purchasing uniforms.
    I think a lot of this, again, stems to each service has 
their own culture, each service has their own acquisition 
process. And it is often easier for them to be able to go their 
own route, do their own testing, and develop a uniform exactly 
to their own specifications.
    But particularly in a joint environment, there are also 
security and safety risks if you have people in a combat 
environment with different types of uniforms, different 
camouflage patterns.
    Mr. Collins. I have experienced that in Iraq.
    Real quickly, and I am out of time, but are personnel 
costs--I know you look at the cost of the program savings, but 
is personnel, like elimination or others, included in your 
potential cost savings or streamlining?
    Mr. Dodaro. It depends on which of the options we are 
talking about.
    Mr. Collins. Okay. And I will have some questions I will 
provide after, because I would like some answers on that.
    Mr. Dodaro. Yeah, we'd be happy to talk to you more about 
it.
    But I would just say on one point, this combat uniform 
issue, if you look at many of our other options, there are much 
more expensive examples of what is happening here--unmanned 
aircraft systems, electronic warfare. There are huge 
opportunities there to be more efficient in the Department.
    Mr. Collins. Well, thank you for your work.
    And I yield back my time.
    Mrs. Lummis. Thank you.
    The chair now recognizes the gentleman from Nevada, Mr. 
Horsford.
    Mr. Horsford. Thank you, Madam Chair.
    Mr. Dodaro, good to see you again. Thank you for your 
agency's work.
    I have a technical question first, just on the report 
itself. Once you do a review of an agency, I am reading through 
here, sometimes an agency comments, sometimes they don't 
respond at all. What is the requirement on an agency to respond 
to your--the GAO's recommendations?
    Mr. Dodaro. Yeah, there is really no requirement. We give 
them an opportunity in accordance with our procedures and our 
generally accepted auditing standards, provide them an 
opportunity to comment. There is no mandatory requirement that 
they do so.
    Mr. Horsford. That seems like a fundamental flaw in the 
process, as well. As a former State legislator, you do an audit 
or a review of an agency, at a minimum that agency should 
respond to those recommendations to say whether--you know, and, 
again, sometimes they have, they agree. Sometimes they explain 
further why there may be an overlap or duplication. And 
sometimes they don't respond at all, which, to me, if they are 
not responding at all, that is completely being unresponsive.
    Mr. Dodaro. Yeah, I don't disagree with you at all on that. 
And two things I would say. One is it is relatively rare when 
they don't; usually they do. And they will agree or disagree. 
Sometimes they will comment on our findings but not on the 
recommendations. If I think it is a significant issue, I try to 
meet with the heads of the agencies and talk them through those 
issues. But, by and large, we get good comments and good 
cooperation because they know it is in their interest.
    Mr. Horsford. Okay.
    So let me turn specifically to the higher education 
assistance portion. And another technical question is, you say 
here that, as of April 9th, GAO has not been able to assess the 
2013 areas identified. What does that mean?
    Mr. Dodaro. Let me ask Barbara.
    Madam Chair, we need to have her sworn in, please, if I 
might?
    Mrs. Lummis. Thank you.
    Please raise your right hand. Do you solemnly swear or 
affirm that the testimony you are about to give will be the 
truth, the whole truth, and nothing but the truth?
    Thank you, ma'am. You may take your seat.
    Let the record reflect that the witness answered in the 
affirmative.
    Ms. Bovbjerg. My name is Barbara Bovbjerg. I am the 
Managing Director for Education, Workforce, and Income Security 
Issues.
    And we wanted to discuss higher education assistance, 
because there are three different kinds of assistance out 
there. There are grants, like the Pell Grants. There are 
student loans, loans to students and parents. And there are tax 
benefits. And these are not necessarily well-coordinated.
    There are programs in Education, in the Veterans Affairs 
Department, in DOD that assist students with education. There 
are multiple tools for different situations; they don't all get 
used. There is not a lot of coordination across agencies.
    Mr. Horsford. But on this report, it shows an ``A'' next to 
``Completion.'' What does that mean?
    Ms. Bovbjerg. You are talking about the STEM program, I am 
thinking.
    Mr. Horsford. No, it says, Area 16, Higher Education 
Assistance. You know, if it is fully enclosed, it has been 
addressed; if it is half-enclosed, it is partially. And then 
there is a thing that says, ``A, as of April 9, 2013, we have 
not assessed the 2013 areas identified.''
    Mr. Dodaro. Oh. Okay. It is because it is a new issue, it 
is really not addressed. That is a footnote A. That means it is 
a brand-new issue, and so we haven't yet--they haven't had a 
chance to implement it yet.
    Mr. Horsford. Okay.
    So let me ask my question specifically. And you pointed out 
the three agencies--actually, four different Federal agencies 
that administer Federal aid. On one of them, the report states 
that, in 2009, 1.5 million taxpayers failed to file for an 
education credit for which they were eligible.
    Have the Treasury and Education Departments taken any steps 
to improve the public's knowledge of these education tax 
credits, to your knowledge?
    Ms. Bovbjerg. As in many areas, they are starting to think 
about this. We had suggested that they look at the 
demographics, at the characteristics of the households and 
individuals who were eligible but didn't file.
    We also asked that they improve the information to them. 
People don't well understand how these programs work. They also 
don't understand how the Federal aid programs work generally. 
So the application, the FAFSA that you fill out for Federal 
financial assistance, even though there has been an effort on 
the Department of Education to streamline that and to 
prepopulate it with IRS information, it can be difficult and 
tedious for people to fill out, and people don't.
    And so there are people who not only don't get to take 
advantage of the tax benefits that could accrue for education 
expenditures, but there are doubtless people who don't apply 
for benefits for which they would be qualified and perhaps do 
not get the education to which they may be entitled.
    Mr. Horsford. Yeah, and, obviously, that is troubling at a 
time when the costs for education are going up.
    Madam Chair, I know my time has expired. I don't know if 
the time of her having to be sworn in counts against me or if I 
get any extra time or not.
    Mrs. Lummis. I will grant the gentleman additional time.
    Mr. Horsford. Thank you.
    On the improper payments in the VA's comprehensive Post-9/
11 GI Bill program, apparently that quadrupled between 2009 and 
2010. And your report recommends that the Department of Ed 
share best practices with the VA and the Department of Defense. 
In what ways do you recommend that that collaboration occur?
    Ms. Bovbjerg. Well, one of the issues when this program was 
first implemented was how to get improper payments back. And if 
the funding is going to the schools, it is much easier to get 
things back because we have institutional relationships and 
there are a number of people getting funding via the school. We 
can withhold money--we can do different things to get that 
money back. It is much more difficult when it goes to the 
individual.
    And this was something that was really a little bumpy at 
the beginning of the Post-9/11 GI Bill implementation. And we 
felt that the Department of Education has for many years run 
grant programs and loan programs for students in higher ed and 
that they might have been able to help with certain common 
practices that are used.
    Now, in the VA's defense, they have begun talking to the 
Department of Education. I don't want to hold out the education 
programs as being perfect, by any means, but, certainly, there 
is a level of experience and lessons learned from many years of 
practice that could help.
    Mr. Horsford. Thank you.
    Thank you, Madam Chair.
    Mrs. Lummis. Thank you.
    And now we will--the chair recognizes the gentleman from 
Michigan, Mr. Bentivolio.
    Mr. Bentivolio. Thank you, Madam Chairwoman.
    My question deals with combat uniforms. Now, just for 
clarification's sake, the two uniforms we went from was desert 
camo and forest BDU, if I am not mistaken? ``BDU'' meaning 
battle dress uniform. Correct?
    Ms. St. Laurent. Yes. There were--we went from two to seven 
different uniforms.
    Mr. Bentivolio. So these are not----
    Ms. St. Laurent. Different patterns.
    Mr. Bentivolio. Right. These are not Class A's, they are 
not dress whites. These are everyday-wear working uniforms, 
correct?
    Ms. St. Laurent. Yes. Correct.
    Mr. Bentivolio. Great. That is what I thought. And we went 
from--if I am not mistaken, the difference between the old 
forest green camouflage for a Marine and an Army was the name 
of the branch, upper right-hand pocket, and I think the Marines 
wore their sleeves differently than the Army? Correct?
    Ms. St. Laurent. Again, there have been a number of changes 
made----
    Mr. Bentivolio. Yeah.
    Ms. St. Laurent. --over the years.
    Mr. Bentivolio. A number of changes. Now we have seven. We 
have the blue digital Navy, Air Force; Marine brown digital; 
Army gray-greenish digital. And we have a--do we have a special 
camouflage? I am trying to find the other three or four.
    Mr. Dodaro. There are pictures of them all in our report.
    Ms. St. Laurent. Right.
    Mr. Dodaro. Let me get the page.
    What is the page?
    Mr. Bentivolio. Okay. Well, I will look at that.
    Mr. Dodaro. Yeah, we have them all listed, pictures of them 
in the report.
    Mr. Bentivolio. All right. But I think I saw an $82 million 
savings if we reduced it to one?
    Ms. St. Laurent. Right. That would be the savings 
estimated, for example, if the Army and the Air Force go 
together in designing a new uniform. And the savings that we 
are reporting, these are the savings because the Defense 
Logistics Agency, which procures uniforms for all the services, 
will waive their initial inventory fee if two or more services 
join together in a procurement of a same uniform.
    Mr. Bentivolio. And that was the $82 million that I read?
    Ms. St. Laurent. Uh-huh.
    Mr. Dodaro. Yes.
    Mr. Bentivolio. So what is your estimate of the cost 
savings, for instance, if we went to just one digital uniform?
    Ms. St. Laurent. We don't have a specific cost estimate. 
Again----
    Mr. Bentivolio. Okay. But it would be considerable?
    Ms. St. Laurent. It would probably be significantly more 
because we would expect that there would be economies of----
    Mr. Bentivolio. Scale.
    Ms. St. Laurent. --scale in the procurement of the 
uniforms, as well as some savings in the design and 
acquisition.
    Mr. Bentivolio. And the only difference would be the name 
of the branch, and possibly the way they wear their sleeves or 
their hat would tell the difference, correct?
    Ms. St. Laurent. Right. Each service has to examine, look 
at their mission and determine where do you need pockets, how 
much material do you have to carry, and those kinds of things. 
So that is why the current Department of Defense guidance does 
not require all the services to have the same uniform. But it 
highly encourages them to explore opportunities to partner 
together and see if they can reach compromises and work through 
the requirements.
    Mr. Bentivolio. Okay. So when you said cargo pockets, I 
mean, it is my understanding the cargo pocket on your leg has 
to be big enough to fit an MRE. So an MRE is eaten by all 
branches----
    Ms. St. Laurent. Right, that is correct. But, again, 
looking at the services' different missions, they may be 
carrying different types of equipment and want to modify things 
a little bit.
    Mr. Bentivolio. Okay.
    Ms. St. Laurent. So that is where some of the individual 
requirements come from.
    Mr. Bentivolio. Have there been any studies on exactly what 
the cost savings would be if we went to one uniform?
    Ms. St. Laurent. No. We checked with the Department of 
Defense, and we do not think that they have--we do not think 
that they have identified or done any particular studies. So, 
again, our analysis was based on the Army and Air Force going 
together and the inventory fees that could be saved.
    Mr. Bentivolio. Eighty-two million dollars. Thank you very 
much.
    I yield back my time.
    Chairman Issa. [Presiding.] Would the gentleman yield?
    One quick follow-up. In this year's statement, you talked 
about the uniforms, obviously the branches buying additional 
uniforms. Have you ever looked into the aborted program to 
consolidate non-uniformed service personnel in combat, their 
uniforms?
    Apparently, they have repeatedly had these studies to try 
to come up with sort of what--when I visit Afghanistan or Iraq, 
civilians, other employees, the press, they are in haphazard 
different uniforms, sometimes sort of camouflage. I have become 
aware of it on multiple occasions, that apparently they keep 
getting ready to design one and then they can never get buy-in 
from the services.
    Does that fit at all into sort of this, not invented here, 
I won't buy an Army solution even for civilians?
    Ms. St. Laurent. We focused on the service uniforms, 
military officials in this study, so we haven't looked 
specifically at that issue.
    Chairman Issa. Okay. Thank you.
    I thank the gentleman.
    We now go to the gentleman from Virginia, Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman.
    And thank you and Mr. Cummings for holding this hearing. I 
think this is one of the most important hearings we have every 
year, but I guess it is not sexy, looking at the press table. 
And yet, when we think about the potential for savings----
    Chairman Issa. Would the gentleman yield?
    Mr. Connolly. I would.
    Chairman Issa. You cannot insult the esteemed members of 
the press who are here. I would like to personally thank the 
esteemed members of the press who saw the importance of this.
    Mr. Connolly. That is right. But thank you for being here. 
I just wish more of your colleagues understood how important, 
actually, this topic really is.
    General Dodaro, you had 381 recommendations--and thank you 
to you and your able staff for this very illuminating report. 
You had 381 recommendations since 2011, I think. What is the 
total estimated ballpark figure of savings to the government if 
all 381 were implemented?
    Mr. Dodaro. The estimate we have is tens of billions of 
dollars. We don't have a specific estimate.
    Mr. Connolly. Well, actually, it is a lot more than that. 
Just, I am going to get to one of them, tax collection. But, I 
mean----
    Mr. Dodaro. Well, if you closed the tax gap, you could, you 
know----
    Mr. Connolly. Yes. And improper payments.
    Mr. Dodaro. Right, right.
    Mr. Connolly. There is another $125 billion a year, so, I 
mean----
    Mr. Dodaro. We are being very conservative.
    Mr. Connolly. You really are.
    Mr. Dodaro. Yeah.
    Mr. Connolly. I mean, because this committee actually has 
explored just those two items, and they exceed $500 billion a 
year, just those two.
    Mr. Dodaro. Which two.
    Mr. Connolly. Well, the tax gap----
    Mr. Dodaro. Well, the tax gap is $385----
    Mr. Connolly. And improper payments are $125 billion a 
year, maybe more.
    Mr. Dodaro. Right. Right. 
    Mr. Connolly. So uniforms is interesting, and certainly we 
should effectuate an efficiency. But when we are looking for 
savings, we ought to go, it seems to me, after the big stuff.
    And let me do that. In your looking at the tax gap, the 
figure from 2006 is $385 billion estimated. Is that correct?
    Mr. Dodaro. That is correct. That is the net tax gap, 
right.
    Mr. Connolly. Net tax gap. Now, could you define for us 
what ``tax gap'' means?
    Mr. Dodaro. ``Tax gap'' means the difference between taxes 
that are owed but not collected. For example, the voluntary 
compliance tax rate is about 84 percent, so about 84 percent of 
citizens voluntarily comply and file their taxes. And it has 
been that way for a number of years now. So if you think about 
it that way, 16 percent of the population is not properly 
filing their taxes.
    And that can include companies, as well. The tax gap is 
really widely distributed across both corporations and 
individuals and different types of taxes.
    Mr. Connolly. And, in fact, you went into that, General, in 
the report, saying that taxpayers' underreporting is less 
likely to occur when the tax information is also reported to 
the IRS by a third party. Is that correct?
    Mr. Dodaro. That is correct. That is correct. And we 
recommend more third-party reporting.
    Mr. Connolly. What does that mean?
    Mr. Dodaro. That means getting information from other 
agencies outside the IRS or the particular employer of the 
individual. For example, there is a number of reports that are 
out there that show business activity of different businesses, 
and we have suggested IRS get those reports and compare them to 
the businesses that are reporting taxes to compare the data.
    Mr. Connolly. Okay.
    Mr. Dodaro. The data-matching aspect of this is the most 
efficient and effective way to spot potential problems.
    Mr. Connolly. And why would we be leaving $385 billion of 
revenue that is owed the government--not new taxes, not cutting 
critical investments--why in the world would we leave $385 
billion, given our fiscal crisis, on the table? But for what?
    Mr. Dodaro. That is one of the reasons I have included it. 
It has been on our high-risk list for years, and I have 
included it in every single one of these three reports that we 
have put out. I just think we are not focusing enough 
attention----
    Mr. Connolly. Well, General, could it have something to do 
with resources at the IRS?
    Mr. Dodaro. In some cases, resources would be helpful, but 
not in all cases.
    Mr. Connolly. What is the ROI, what is the return on 
investment for every dollar in collection resources we invest 
in IRS? Do you know? Would at----
    Mr. Dodaro. My experts tell me they don't have good data on 
that.
    Mr. Connolly. Would at least $1.60 be in the ballpark, do 
you think?
    You can get back to us.
    Mr. Dodaro. Yeah.
    Mr. Connolly. You can get back to us.
    Mr. Dodaro. Okay.
    Mr. Connolly. But if you could get that for the record.
    Mr. Dodaro. All right.
    Mr. Connolly. And then I have 37 seconds, so real quickly, 
the chairman and I have introduced a bill, as you know, called 
FITARA in trying to streamline and make more efficient and 
effectuate savings in our Federal IT acquisition process. And 
in that bill there is something called the working capital 
funds to help cloud service transitions for a period of up to 5 
years.
    Real briefly, if the chairman will entertain it, would you 
comment on that provision? Because I think it is consistent 
with some of the findings in your report.
    Mr. Dodaro. Yes. I will ask Mr. Willemssen----
    Mr. Connolly. If the chairman would allow the answer.
    Chairman Issa. Of course.
    Mr. Connolly. I thank the chair.
    Mr. Willemssen. Yes, Congressman, that provision would be 
clearly consistent with our message in the cloud area. And we 
are in--that is in part why we are supportive of the bill. The 
bill overall includes at least eight areas that are included in 
our duplication report that was issued today.
    Mr. Connolly. Thank you very much. And I knew the chairman 
would like to hear that.
    Chairman Issa. Would the gentleman yield?
    Mr. Connolly. Absolutely.
    Chairman Issa. General Dodaro, the gentleman asked about 
additional audit. And no question at all, I think he had an 
accurate, known figure. But isn't it that watchdog groups and 
others have come up with items that would, in fact, provide 
data that would give you a sense of people who you can't audit 
because they haven't filed a return that are in the cash or 
somewhat-cash economy? Isn't that a big part of that 
nonreported? You know, the 84 percent is who you audit, but the 
16 percent would be the ones you are not auditing, right?
    Mr. Dodaro. Well, it could be. It could be the ones you are 
not auditing. I agree with you. That----
    Chairman Issa. Has the IRS ever audited someone who didn't 
file taxes?
    Mr. Dodaro. Well, only if they would get a tip or 
something----
    Chairman Issa. Yeah.
    Mr. Dodaro. --from somebody that indicates that they are a 
nonfiler in that area.
    But there are other things that--like, we recommend that 
Congress give IRS math authority so they could fix some of 
these returns when they come in. That doesn't cost any 
additional money.
    We recommend that IRS, in our most recent report, redirect 
some of their resources from auditing lower-income taxes 
returns to the higher-income taxes. They would get more ROI 
back on the money that they, you know, spent. Same amount of 
resources they would have, auditing different types of tax 
returns, yields more revenue back to the IRS.
    So we have a long list of recommendations in this area that 
we think could be implemented without additional resources that 
would yield greater revenues to the government.
    Chairman Issa. Okay. I thank the gentleman.
    We now go to the gentleman from North Carolina, Mr. 
Meadows.
    Mr. Meadows. Thank you, Mr. Chairman. And thank you for 
holding this hearing on this important topic.
    And as I have just come back from the district, this 
particular issue continues to come up over and over again. 
American--the hardworking American taxpayers have a hard enough 
time paying for something once, but paying for it twice is 
really a problem.
    And so I want to focus a little bit on something that was 
put in your GAO report on renewable energy initiatives. And I 
have an energy background going back some 35 years ago. And as 
we looked at that initiative, Federal spending over a 7-year 
period from 2002 to 2008 averaged about $4 billion a year and 
increased in 2010 to some $15 billion.
    And in quoting you--this is a quote: ``We found that 
Federal support for renewable energy is fragmented, as 23 
agencies and their 130 sub-agencies implemented hundreds of 
initiatives in fiscal year 2010. We assess that the Federal 
wind energy initiative found that there were 82 wind-related 
initiatives that we examined that had overlapping 
characteristics.''
    And so my question is this. In 2012, the GAO found that 
there were 700 government initiatives to promote renewable 
energy, and the report finds that there was overlapping 
initiatives throughout this entire area. Would it be safe to 
say that the Obama administration's spending on renewable 
energy is lacking coordination?
    Mr. Gaffigan. I would say that this has been a problem even 
before the Obama administration, in terms of the number of 
initiatives we have out there.
    Just to go out and do the inventory and come up with those 
numbers was a huge effort on our part. We couldn't go out and 
go to one source. You would think you could go to the 
Department of Energy and get that number, right? But the 
Department of Energy is just one of those agencies involved in 
dealing with renewable energy initiatives.
    And we have in the body of the work that we have worked on 
energy issues for a long time, this has been an issue going 
back as long as I have worked in the area, in the early 1990s.
    Mr. Meadows. Okay. Well, let me----
    Mr. Dodaro. It is also----
    Mr. Meadows. Okay. Go ahead.
    Mr. Dodaro. It is also fair to say that a number of those 
initiatives were enacted by Congress, as well, that they 
weren't just administration initiatives. It is a mixture of 
both.
    Mr. Meadows. Well, but let's look at the coordination. If 
this was a problem and we had a problem with coordination, why 
would we increase the spending by 400 percent because we take 
an inefficient program and make it more inefficient?
    Mr. Gaffigan. I don't think we spoke to the efficiency of 
the particular initiatives. There are a lot of initiatives out 
there, and some of them, you know, some initiatives, some 
projects may benefit from multiple sources.
    What we are trying to point out is, does anybody have a 
sense of all these different initiatives, as the Comptroller 
General mentioned, established by Congress many of them, both 
on the tax side, the tax expenditure side, which tends to have 
the least amount of transparency, as well as program 
initiatives that every administration puts forward.
    Mr. Dodaro. But I think this goes back to Chairman Issa's 
point, too, about the visibility over these things. Nobody 
really had visibility over it. Nobody is responsible for 
focusing in on this. And if it wasn't for us going in and 
identifying this, nobody would know how many programs there 
were.
    Mr. Meadows. Basically, if it is green, it is good. And 
that is what we are--and that is why I wore my tie today, to 
make sure that--but as we look at this, let's go on a little 
bit further then. How much cost savings could we achieve if we 
resolved this coordination problem? I mean, what are we looking 
at?
    Mr. Gaffigan. Yeah----
    Mr. Meadows. Seven hundred government initiatives.
    Mr. Gaffigan. Yeah. That is very hard to say, because we 
think that there could be some cost savings, but there also 
could be greater efficiencies, you know, more effective 
programs. So it is a combination of those two things.
    The first step is to figure out what all these initiatives 
are. And even though we did those numbers, in 2011 they are 
going to change, in 2012 they are going to change, in 2013 they 
are going to change, because initiatives are coming in and 
going out. So it is very difficult to get a sense of the 
snapshot every time. It is a huge amount of our resources just 
to figure out and identify those 700 initiatives.
    Mr. Meadows. And so those are changing on a regulatory 
basis? Because Congress is not changing it from year to year.
    Mr. Gaffigan. Well, there are programs being, you know, 
implemented and different emphasis on various programs within 
the government. So----
    Mr. Meadows. From a regulatory standpoint?
    Mr. Gaffigan. I think it is a combination of changes in the 
Tax Code. You know, you have different Tax Codes that may be 
expiring and being renewed. Some are renewed, some aren't. So 
there is the changing landscape. And then agencies are making 
decisions on what to emphasize.
    Mr. Meadows. All right. Let me--I am running out of time--
let me ask one last question here. As we have seen, you know, 
there has been quite a bit of malfeasance uncovered within the 
administration in terms of spending on green energy over the 
last 2 years. And as we see this--you know, a lot of it coming 
from the Department of Energy.
    What energy efficiency programs do you find most concerning 
out of these 700 government initiatives?
    Mr. Gaffigan. Well, there is a lot of work we have done in 
the energy sector. I would say when we looked at the Loan 
Guarantee Program, we had some concerns about documentation of 
that program.
    But, by and large, our main concern was just bringing forth 
the notion that no one had a good sense of how many different 
initiatives there were, and was there good coordination.
    Mr. Meadows. So if you were to eliminate three--I can see 
my time has expired. Would the chair yield for one last 
question?
    Chairman Issa. I ask unanimous consent the gentleman have 
an additional 30 seconds.
    Without objection, so ordered.
    Mr. Meadows. Okay.
    As we see this, if you were to put three programs that if 
you had a magic wand you could make disappear and save the 
hardworking American taxpayers money, what three programs would 
those be?
    Mr. Gaffigan. You know, we haven't identified programs that 
we would eliminate. And, I mean, ultimately, that is Congress' 
decision in terms of policies.
    What I would say is, if we want to make savings in green 
energy, renewable energy, we have to address the question and 
the issue of fossil fuels, which we are very heavily dependent 
on both for transportation and less so in the electricity 
sector, and recognize that we pick those because they are the 
most cost-competitive sources of energy. And to force changes 
through government interaction is just one piece of that. And 
we have to really get an understanding of what government role 
should play. Should it be in the R&D sector? And those are 
policy decisions that are made by the Congress.
    Chairman Issa. The gentleman's time has expired.
    Mr. Meadows. I thank the chairman, and I yield back.
    Chairman Issa. What are you yielding back? I thank the 
gentleman.
    We now go to the gentlelady from the District of Columbia, 
Ms. Eleanor Holmes Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    This is always an important hearing, but it also is more of 
the same. And I want to suggest--ask a question concerning 
approach. The gentleman before me spoke of coordination. I want 
to speak of consolidation. I think both are important.
    But it is in the nature of government, Mr. Dodaro, that we 
are going to have functions that overlap, even duplicate, 
because we have 12 appropriations subcommittees and they are 
pretty independent. We have many more authorization committees 
and subcommittees. And so it is the nature of the beast that 
they are going to put out duplicate programs. There comes a 
point when one has to look at those programs and say--make the 
kind of evaluation, the very helpful evaluation, you have made.
    May I say how much I appreciate that a part of your report 
opens with a definition of the differences between 
fragmentation and overlap and duplication, although I do note 
that you still lump them all together in the text. And yet 
there is a tremendous difference, considering, for example, 
that you could easily have programs that are fragmented because 
it is too early to put them together, or that overlap for 
reasons that would be perfectly sensible.
    But, at some point, if they are to be retained, one has to 
ask the questions that the GAO has asked. So I went out to get 
from staff the latest version of an attempt to consolidate--in 
other words, an approach that would try to take this and keep 
it from having a revolving-door aspect, as I think you will 
find the next time the Appropriations Committee comes out with 
yet another--with yet another provision.
    Now, the President, in 2012, early 2012, submitted a 
proposal to consolidate some agencies within the trade-related 
sector. Now, put aside the sector; that is really not my 
question. As I recall, we had a hearing on that. That did not 
move forward.
    It seemed to me fairly compelling, so I went looking for 
the letter, because it was focused on business and trade, and 
it indicated that it was difficult for firms and especially 
small business to get assistance. And so the proposal was to 
have one phone number, one mission. And it was said that this 
would help business succeed and support competitiveness, 
exports, job creation. Now, of course, that is all description. 
We would have to see if that would happen.
    But does there not come a point when GAO itself, perhaps, 
might suggest a more comprehensive approach than simply 
pointing out the pockmarks and hoping that somebody will pick 
them up? The President hasn't had this authority since Ronald 
Reagan.
    My question goes to the authority. Do you think that, given 
the nature of the problems you continue to uncover on an annual 
basis, that some of them might be eliminated through 
consolidation of some of the functions themselves?
    Mr. Dodaro. Yes. In certain areas, we have recommended 
that. For example, we have looked at the loans--loan programs 
at HUD and at Agriculture in the rural housing area. In fact, 
HUD is giving as many loans in rural communities as the Rural 
Housing Authority is in urban counties. And so----
    Ms. Norton. So how would you consolidate that?
    Mr. Dodaro. Well, you would put the two agencies together. 
You could locate them at HUD. HUD has a more extensive network. 
You could create another entity. I mean, there are different 
options for how to do it, but where we have identified that 
opportunity, we have pointed that out in those areas.
    Ms. Norton. Uh-huh.
    Mr. Dodaro. And I might say, as it relates to the scope of 
our work, I mean, we were mandated by Congress to have a 
routine set of audits and annual reports that outlined 
duplication across Federal Government agencies. I mean, that is 
why we are issuing these products. In some cases, you can do 
some consolidation, of course. And where we think it is 
appropriate, we have pointed it out.
    Ms. Norton. Well, I appreciate that you have pointed it 
out, because there is a kind of repetitive nature to this 
report. And the problem--I am not bothered by the repetitive 
nature. I am bothered by the fact that the next appropriations 
cycle is going to dump equal amounts of uncoordinated and 
unconsolidated even, of course, programs.
    So this particular one didn't move forward. I never was 
able, frankly, to get a view because we didn't--we never got 
that deeply into it. But it does suggest that--and, by the way, 
only the Congress can give the President that authority, isn't 
that not the case?
    Mr. Dodaro. That is correct.
    Ms. Norton. Finally, could I ask you, on----
    Chairman Issa. Would the gentlelady yield for a second?
    Ms. Norton. Yes.
    Chairman Issa. Your question is a good one, but if we 
perhaps could ask it both ways. We can give them the authority, 
but, of course, the President can either get the authority to 
do something he hasn't asked for or he can ask for 
reorganization specific and then get that bill from the 
Congress. Either one is allowed.
    Ms. Norton. Say that again. He can either ask for it or?
    Chairman Issa. As you were alluding to, since Ronald 
Reagan, off and on, there has been reorganization authority. 
But Congress has the actual right, and we abrogate our rights 
when we give reorganization authority.
    On the other hand, if the administration asked for a 
reorganization that he had planned and said, ``I would like to 
do this, this, and this,'' then, in fact, he would be asking 
Congress to pass a bill, and he would send us a draft bill.
    The two are rather interesting differences. And the only 
reason I mention that is, every time Congress sends a proposal 
for effectively reorganization, the administration--we could 
sua sponte pass a bill and send it to the White House, where 
the President could say, I like parts of this, I don't like 
parts of this, and ask for it.
    But I think the gentlelady's point is good. Without a 
reorg, without real change in the organization, you will 
probably not have full implementation of these at all.
    Ms. Norton. Indeed, that is a very important point that the 
chairman makes. And I note that the President asked for fast-
track authority. Because once you do it by saying, Here are a 
set of agencies, then what you do is to have the Members, who, 
for reasons of their own, perhaps that function is in a 
Member's district or in a Member's State, pick and choose, and 
they pick the bill apart.
    So the experience has been that if you don't give the 
President the authority in some kind of fast-track order, the 
way we do with trade itself, the notion of consolidation 
becomes just that, a notion.
    So I am not--I just wanted to get on the record that that 
would be a way, although we haven't used it in some time, to 
deal with the overlapping. I don't even want to use that word 
because my next question is going to be, is there a way to 
unbundle how much of it has been fragmentation, how much of it 
has been overlap?
    Because you appear to understand and want us to understand 
the difference. In this graph that you have on page 2, that 
speaks of what fragmentation means, what overlap means, and 
what duplication means, and, hence, a final--you know, somebody 
needs to go, with the duplication.
    Chairman Issa. The gentlelady's time has expired, but 
please answer.
    Mr. Dodaro. Right.
    I mean, we can segregate that out. But I would make a very 
important point. We are just not reporting fragmentation to say 
things are fragmented. We are only pointing out areas of 
fragmentation where we believe there to be inefficiency.
    Ms. Norton. No, I understand that.
    Mr. Dodaro. You know, because you are right, I mean, we 
could point out a wide range of things that are fragmented but 
are not necessarily leading to inefficiencies.
    Ms. Norton. No, and I appreciate that, that this involves 
the analysis----
    Mr. Dodaro. Right.
    Ms. Norton. --that shows there is an underlying problem.
    Mr. Dodaro. Right. But we could identify that, recognizing 
in some areas there are both fragmentation and overlap and 
duplication. So there are elements of some, elements of three 
of them in several different areas. But we can attempt to 
isolate those and provide the committee with a listing.
    Chairman Issa. If you would do that.
    Ms. Norton. I would appreciate it.
    Chairman Issa. The gentlelady from Wyoming is recognized.
    Mrs. Lummis. Thank you, Mr. Chairman.
    And I would like to continue this conversation with the 
opportunity, I hope, to not only ask you questions, Mr. Dodaro, 
but also our chairman and the delegate because of their 
longtime experience on this committee.
    Has there ever been a joint reorganization council in the 
Federal Government between the executive and legislation 
branch?
    Chairman Issa. There has. Probably--the Hoover Commission 
probably would be the huge success story where it was long-
term, ongoing, and bought in by all the bodies.
    Most recently, I think the Homeland Security standup would 
be a major reorganization, where the administration came to us, 
said what they wanted in this new entity, and then we passed a 
bill.
    Those would be the two most current examples, one doing it 
one way, one doing it the other way.
    Mrs. Lummis. Do they work better if they are topical, or 
can you do something broader than a consolidation on one topic? 
Meaning----
    Chairman Issa. I think that is where somebody has to come 
up and talk about the success of Hoover, because it is the 
poster child for how you do it right.
    Mr. Dodaro. If I could have Mr. Mihm come up and be sworn 
in.
    Chairman Issa. Please raise your right hand. Do you 
solemnly swear the testimony you are about to give will be the 
truth, the whole truth, and nothing but the truth?
    Let the record indicate the witness answered in the 
affirmative.
    Mr. Mihm. Well, first, Mr. Chairman, thank you very much 
for raising the Hoover Commission. I mean, it is music to my 
ears, as a management geek here.
    The reorganizations that work best are those in which the 
Congress is deeply involved at the outset in making sure that 
they understand what the proposals are going to be, what will 
be done, and how it will be done.
    One of the concerns that I know various Members raised, you 
know, as regards to the last reorganization proposal that came 
in from the administration was that they hadn't been brought in 
at an early enough point to understand the implications of 
this.
    And it doesn't mean that at the end of the day that it 
couldn't all have been resolved. But the experience, as the 
chairman just mentioned, of the Hoover Commission, of where you 
get the Congress and where you get the administration, 
supplemented by outside experts that can help them on that, 
deciding on an approach, whether it be a comprehensive or an 
agency-specific approach, such as the Department of Homeland 
Security, getting them all working together is really the best 
way to do it.
    Mrs. Lummis. Well, Mr. Chairman, I want to follow up with 
this line of questioning then.
    How long has it been since the Hoover Commission completed 
its work? Is it a----
    Chairman Issa. You weren't born, young lady.
    Mr. Mihm. It has been a while, yes, ma'am.
    Mrs. Lummis. Is it time--is it time to do it again?
    Mr. Mihm. There is certainly, you know--it is, you know, 
given the current fiscal crisis, given how difficult the set of 
policy questions are that Congress confronts, given the track 
record of our overlap, duplication, and fragmentation efforts, 
it is certainly may be worthwhile to step back and say, do we 
have the right organization in shape here for a 21st-century 
government?
    Technology has changed fundamentally in the way we can 
deliver services, and yet the basic institutional structure of 
Federal agencies, the way they deliver programs, has not 
changed in generations. In some cases, we have agencies that 
were put together to deliver services for an earlier time, an 
earlier client base. That continuously needs to be refreshed. 
Whether or not we do it on a big, broad commission or do it on 
a case-by-case basis is a different question. But, certainly, 
we need to be reviewing not just the increments but the base of 
government in the current environment.
    Mrs. Lummis. Now, was the Hoover Commission created by 
Congress?
    Mr. Mihm. I will have to----
    Chairman Issa. Technically, yes.
    Mr. Mihm. Thank you. I will take the chairman's----
    Mrs. Lummis. And with the assent and participation of the 
executive branch?
    Mr. Mihm. Right.
    Chairman Issa. Yeah, it was actually Presidentially asked 
for, authorized, and then included all of them.
    And do you remember how many years, sort of, between the 
beginning and the end? It was huge. Hoover 1 and Hoover 2.
    Mr. Mihm. There was Hoover 1 and Hoover 2. I will have to 
refresh the history on that, but, you know, there were a number 
of years there.
    I mean, there have been other attempts. You know, there was 
the Ash Council and other councils that have--you know, 
President Nixon, of course, had a huge effort. President Carter 
had a reorganization effort that was attempted.
    But there really hasn't been a zero-base one. The closest 
we came to that in recent memory has been the National 
Performance Review under President Clinton, of course. But that 
really wasn't a big reorganization. That was about improving 
effectiveness of government with some reorganization elements.
    Mrs. Lummis. And did it? Did the Clinton administration 
performance reviews improve performance?
    Mr. Mihm. Overall, when we looked at--we have done a number 
of reviews of the 380 or so recommendations that they made. You 
know, we thought they were sensible recommendations.
    They certainly--one of their big achievements, I think, 
was--whether or not we give the NPR credit for this--was 
bringing a focus to customer service within many Federal 
agencies. Agencies hadn't been familiar with thinking of the 
public in which they deal with as customers that have a right 
to polite, fast, and efficient and effective service.
    Certainly, one of the other pieces that was put in place 
during the National Performance Review era, but it was a 
congressional initiative, was the Government Performance and 
Results Act. Congress, of course, has modernized that within 
the last couple years to try and get agencies to do a better 
job in setting long-term goals, annual performance goals, 
measuring performance, and, most importantly--and this was the 
thing that we haven't done since the first GPRA was passed in 
1993 and a point of personal frustration for me--is to begin to 
get agencies to do a better job in using that performance 
information in order to improve performance.
    Mrs. Lummis. Uh-huh.
    Mr. Mihm. We produce volumes of information and data on how 
programs are doing. We do a very poor job across government in 
using that information to pinpoint improvement opportunities, 
making changes, and then following up rigorously to see if 
those changes were actually effective. And if they were, let's 
leverage them; if they are not, then let's go to something 
else.
    Mrs. Lummis. I thank the gentleman and the chairman.
    Chairman Issa. And just for the record, the Hoover 
Commission was officially named the commission when it was 
organized by the executive branch, and the body was appointed 
by Harry S. Truman. But it went on to, Hoover 1 and Hoover 2, 
throughout the Eisenhower administration.
    And I believe it is the last one that was essentially 
chaired by a former President. Is that right?
    Mr. Mihm. That is my understanding.
    Chairman Issa. And perhaps that is the hallmark difference 
between it and other notables.
    With that, we go to the gentleman from Tennessee, Mr. 
Duncan.
    Mr. Duncan. Well, thank you, Mr. Chairman. And thank you 
for trying to continue to call attention to this staggering 
problem.
    And I want to, first of all, commend Mr. Dodaro and his 
colleagues. And I suppose you could say that I am hopeful but 
not optimistic. It seems to me that we have allowed the Federal 
Government to get so big and so bureaucratic that it just is 
out of control and these problems just continue.
    In fact, the Washington Examiner story today says, 
``Government overlap and duplication have dogged the Federal 
Government for years. President Reagan formed the Grace 
Commission to identify examples of the problem, and President 
Clinton assigned to Vice President Gore to the task of ending 
it by 'reinventing government.' But the new GAO report makes 
clear that the examples continue to pile up.''
    And then I was given this a short time ago. It is from a 
report, and it says, quote, ``The last major study of Federal 
surveying and mapping nearly 40 years ago found a disturbing 
proliferation of duplication of activity among many different 
agencies. Today these activities are found among an even 
greater number.'' And that was from a 1973 report, 40 years 
ago.
    And, you know, it is really sad. I mean, you have done a--
you and your colleagues have done what I think is an absolutely 
great job finding all these examples. The Justice and Treasury 
Departments' forfeiture programs lost $2.2 billion in 2011 
because the agencies cannot find a way to share storage 
facilities. Drug abuse prevention programs are strewn over 76 
programs, costing taxpayers $4.5 billion. Veterans 
Administration, which seems to feel that they are immune from 
efforts to save money or immune from criticism because we all 
love veterans, but I think there is waste and inefficiency even 
in the VA. And your report says it could save $1.2 billion by 
consolidating employment training programs. And contractors for 
the Defense Department foreign language services run over 159 
separate contracting organizations. I mean, it just goes on and 
on.
    Let me ask you this. How hopeful are you, Mr. Dodaro, that 
5 years, 10 years from now, we won't be coming back finding 
that this program is just as bad or worse?
    And, secondly, what do you--I was not able to get here for 
your testimony. Maybe you have covered this. But how much do 
you do in follow-up, like when you suggested to the--when you 
suggest that the training programs could be consolidated, do 
you write the VA and suggest that? And then when nothing 
happens, do you contact them again 30 days or 60 days or 90 
days later? How does that work?
    Mr. Dodaro. First, we regularly follow up on all our 
recommendations on an every-6-month kind of cycle. And if we 
don't see enough progress made by the executive branch, then we 
will work with the Congress to try to get them involved.
    Part of the issue here is that when we identify these 
programs and activities, they cross multiple Federal 
departments and agencies. And, really, OMB isn't the only 
position to help be a catalyst to look across the executive 
branch agencies. In my opinion, a fundamental flaw of our 
current organization in the executive branch in the government, 
notwithstanding the need to update them, as we were just 
talking, is there is really no accountability when multiple 
agencies are involved in the process. And more and more 
problems are requiring multiple agencies to be involved, I 
mean, because of the complexity of the problem.
    So if we do ever get to the point of studying the 
government's organization, we have to deal with that 
fundamental issue. Because no matter how you reorganize the 
government, there are going to be multiple agencies that are 
going to have to be involved, and we need a way to be able to 
do it.
    On your point about am I optimistic, I am cautiously 
optimistic. My term goes to 2025. I am hopeful that I won't be 
reporting all these same issues in that year. But I can tell 
you that it won't change unless the Congress gets involved in 
this process with active oversight.
    The only times--and I was before this committee recently in 
February talking about our high-risk update. And the only areas 
that come off the high-risk list are where you have top-level 
executive branch attention and Congress is relentless in its 
oversight. Without those two elements, I mean, particularly in 
this overlap and duplication area, you know, you are not going 
to see very many major changes.
    Mr. Duncan. You probably don't want to criticize any 
particular department, but I would be interested to know if 
there is one department that, more or less, is worse than 
others. Or the other side, is there one department that you 
feel does the best job in responding to your suggestions?
    Mr. Dodaro. Well, first, in my opening statement, I talked 
about how pervasive this problem is across government. We have 
recommendations for virtually all major Federal departments and 
agencies.
    I would say that the areas where there is a need for 
rigorous follow-up on the part of Congress is the Defense 
Department and CMS, the Centers for Medicare and Medicaid 
Services. I would say those two departments need attention in 
order to effectuate implementation of our recommendations.
    Mr. Duncan. All right. Thank you.
    Thank you very much.
    Chairman Issa. Thank you.
    General, you have been very kind.
    I am going to do a short couple more questions. Is anyone 
else going to want a second round?
    Okay, seeing none, I will be brief.
    Mr. Duncan just brought up a point, and you named two great 
names: CMS, meaning Medicare and Medicaid; Department of 
Defense, meaning all of what it obviously means. Isn't that 
sort of saying that look for where the big dollars are and you 
look for the big savings, something that Mr. Connolly said very 
well? And, fortunately, he said it to a national television 
audience that is watching it, not just the fine gentlemen in 
the room.
    To that extent, when we look at those large dollars, the 
Department of Defense, duplication within the Department of 
Defense, isn't that a self-inflected wound? Waste and 
duplication and fail to get information and do their job right 
within CMS and, obviously, all the Medicare funding, isn't that 
primarily a self-inflicted wound?
    And I ask that for a reason. A lot of what you did in this 
fine study is you talked about a lot of diverse groups--you 
know, fisheries and catfish and just everything under the sun. 
But the big dollars, the ability to reorganize DOD so that you 
don't have a Pentagon just as filled as it was at the height of 
World War II--and you try to explain why there have to be as 
many people in this day and age in the white-collar, non-
uniformed part of DOD, and the answer is because of, 
essentially, a wasteful way of management. And when you look at 
CMS, and we just had a hearing on $15 billion that was simply 
paid out in excess of what the law allowed, aren't we, to a 
certain extent, having to find ways to make them do their job 
better?
    And the question comes from, isn't that where something 
like the DATA Act, which was passed out of this committee 
unanimously in the last Congress and again is going to go 
through a process in this Congress, isn't that part of the 
process? Create a level of transparency to where these large 
agencies, it becomes so transparent, particularly potentially 
even to watchdogs and the public, that you can get them to do 
their job where it is really all in their turf?
    Mr. Dodaro. Definitely. Definitely. I am very supportive. I 
think that transparency is needed. I think there needs to be a 
statutory underpinning so it is enduring over time and there is 
consistency. Data standards need to be put in place.
    I am very supportive of the need to have that type of 
legislation that would require that level of transparency, and 
from that transparency, can lead to better questions, can lead 
to better oversight and hopefully better results.
    Chairman Issa. Now, the DATA Act calls for recipient 
reporting. In a sense, I think I heard you say that this is one 
of the problems with the IRS, is they are not looking at both 
sides of the transaction in order to find people who don't 
report here but they report to Visa and Mastercard, they report 
to a lot of other transactions; that if you looked at that, you 
would realize that you are missing the very report you needed.
    Is that basically the same thing you are looking at in the 
DATA Act? Do you see those as the same sort of a problem? That 
government, if they are going to audit, has to, whenever 
possible, get information from multiple sources in order to 
realize what they don't know?
    Mr. Dodaro. Oh, that is definitely the case. That is 
definitely the case. And I think the implementation of the 
Recovery Act was a perfect example of how that could be used 
effectively to minimize fraud, waste, and abuse in programs.
    Chairman Issa. Yeah.
    And I think, for the freshmen that are here, the Recovery 
Board is still in business for a reason: that Congress has 
recognized the need for it, kept it open, kept the mission for 
it. Because I think Congress and the GAO, certainly, we have 
recognized that it serves a purpose of showing you can do 
better.
    Mr. Dodaro. Yes.
    Chairman Issa. General, I am very thankful for every 
appearance here, but I think the discussion, because of Ms. 
Lummis, that occurred of the Hoover Commission--and she has 
left now, but Delegate Norton--the idea that, in fact, we have 
to create--and this committee is the committee of 
jurisdiction--create an environment in which Congress buys in, 
the executive branch buys in, to be honest the private sector 
has to be included, if we are going to have the kind of 
reorganization that in 2025 you can say, ``On my watch, we made 
it better.''
    Mr. Dodaro. I think it is imperative we do that, 
particularly given our fiscal precarious nature. I mean, we 
can't afford to continue to operate the way we are operating, 
and it needs fundamental reexamination. We can do better, and 
we have to.
    Chairman Issa. And I am going to close with one thing. The 
ranking member opened thanking your staff, which I will 
reiterate thanking your staff.
    I also will perhaps decry in a strange way the fact that 
sequestration hit your part of Congress, too. And I realize 
that you are now doing more oversight, more investigations, 
more of everything you are mandated to do, and you are doing it 
with less. So I would like to see that reversed as soon as 
possible. I don't think you lay off the auditors when you have 
a problem with accountability.
    But I want to thank you for the good work you are doing----
    Mr. Dodaro. I appreciate---
    Chairman Issa. --and all the men and women that work for 
you.
    Mr. Dodaro. Thank you. I appreciate those kind remarks and 
for your support.
    Chairman Issa. You will continue to have it.
    We stand adjourned.
    [Whereupon, at 3:50 p.m., the committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T0719.047
    
    [GRAPHIC] [TIFF OMITTED] T0719.048
    
    [GRAPHIC] [TIFF OMITTED] T0719.049
    
    [GRAPHIC] [TIFF OMITTED] T0719.050
    
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
